I
2311 Douglas Street
Omaha. Nebraska 68102-1214

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax:(402)342-4850

E-Mail Address:
contact@cockieiegalbriefs.com
Web Site
www.cocklelegaIbriefs.com

NO.
ANNE GEORGES TELASCO,
Petitioner,
v.
THE FLORIDA BAR,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of July, 2021. send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case . All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
Anne Georges Telasco
Pro Se. Petitioner
764 Jay Street
Rochester, New York 14611
Telephone: (585)201-2492
Email: agtelasco@aol.com

Subscribed and sworn to before me this 21st day of July. 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTABY-SUte of Nebraska
RENEE J. GOSS
Wf Comm. Exp. September 5.2023

Notary Public

v

Affiant'

41168

Mary Hope Keating, Esq.
KeatingM@gtlaw.com
Karusha Young Sharpe
SharpeK@gtl aw. com
GREENBERG TRAURIG PA,
101 East College Avenue
Tallahassee, FL 32301
Telephone (850) 222-6891

NO.
In the
SUPREME COURT OF THE UNITED
STATES
ANNE GEORGES TELASCO
Petitioner,
v.
THE FLORIDA BAR,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
For the Eleventh Circuit

PETITION FOR WRIT OF
CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 40 pages and 6,813 words, excluding the
parts of the petition that are exempted by Supreme
Court Rule 33.1(d).
I, ANNE GEORGES TELASCO, declare
under penalty of perjury that the foregoing is true
and correct.
Executed on July 12, 2021
S/ Anne Georges Telasco.
Pro Se, Petitioner

